              HEARING BEFORE THE
COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM,
   SUBCOMMITTEE ON GOVERNMENT OPERATIONS
        U.S. HOUSE OF REPRESENTATIVES

           “Refund-Related Identity Theft”




                     Testimony of
                 Michael E. McKenney
       Acting Deputy Inspector General for Audit
   Treasury Inspector General for Tax Administration

                    August 2, 2013

                   Washington, D.C.
                              TESTIMONY OF
                           MICHAEL E. MCKENNEY
               ACTING DEPUTY INSPECTOR GENERAL FOR AUDIT
           TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                                 before the
            COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM,
                SUBCOMMITTEE ON GOVERNMENT OPERATIONS
                     U.S. HOUSE OF REPRESENTATIVES

                                 “Refund-Related Identity Theft”

                                           August 2, 2013

        Chairman Mica, Ranking Member Connolly, and Members of the Subcommittee,
thank you for the invitation to provide testimony on the important subject of identity theft
and its impact on the Internal Revenue Service (IRS) and taxpayers. The Treasury
Inspector General for Tax Administration (TIGTA) plays a critical role in providing
taxpayers with assurance that the approximately 92,500 IRS employees who collect
over $2.1 trillion in tax revenue each year, process over 147 million individual tax
returns, and issue approximately $333 billion in tax refunds, do so in an effective and
efficient manner while minimizing the risks of waste, fraud, and abuse.

        TIGTA has provided ongoing oversight and testimony on the issue of tax fraud-
related identity theft because of the rapidly growing nature of this tax crime. The IRS
has made this issue one of its top priorities and has made some progress; however,
significant improvements are needed. In addition, there is a portion of the problem that
cannot be fully addressed until the IRS receives income and withholding information
before tax returns are processed, which may require legislative action.

        Incidents of identity theft affecting tax administration have continued to rise since
Calendar Year (CY) 2011, when the IRS identified more than one million incidents of
identity theft. As of June 29, 2013, the IRS had identified almost 1.9 million incidents of
identity theft thus far in CY 2013. This figure includes approximately 212,000 incidents
in which taxpayers contacted the IRS alleging that they were victims of identity theft,
and almost 1.7 million incidents in which the IRS detected potential identity theft.1




1
 Taxpayers can be affected by more than one incident of identity theft. The 212,000 incidents affected
over 180,000 taxpayers, and the 1.7 million incidents affected over 1.4 million taxpayers.
                                                   1
       Since May 2012, my office has issued three reports on the subject of identity
      2
theft. Our first report addressed the IRS’s efforts to assist victims of identity theft, while
the second dealt with the IRS’s efforts to detect and prevent the filing of fraudulent tax
returns by identity thieves. The third report, issued in June 2013, evaluated whether the
Taxpayer Protection Program was effectively assisting taxpayers that the IRS
proactively identifies as potential identity theft victims.3 My comments today will focus
on the results of those reports and on our ongoing work to assess the IRS’s progress in
detecting and resolving identity theft issues related to tax administration.

        The IRS has described identity theft as the number one tax scam for 2013.4
Identity theft occurs when someone uses another taxpayer’s personal information, such
as name, Social Security Number (SSN), or other identifying information, without
permission, to commit fraud or other crimes. In many cases, an identity thief uses a
legitimate taxpayer’s identity to fraudulently file a tax return and claim a refund.

        As we have reported, the total impact of identity theft on tax administration is
significantly greater than the amount the IRS detects and prevents, and the IRS is not
providing effective assistance to taxpayers who report that they have been victims of
identity theft. Although the IRS is continuing to make changes to its processes to
increase its ability to detect, prevent, and track fraudulent tax returns and improve
assistance to victims of identity theft, there is still work that needs to be done.

        One promising development occurred in March 2013 when the IRS announced it
was expanding a program designed to help law enforcement obtain tax return data for
their investigations and prosecutions of specific cases of identity theft. Under a pilot
program, which started in April 2012 in the State of Florida, State and local law
enforcement officials who had evidence of identity theft involving fraudulently filed tax
returns were able, through a written disclosure consent waiver from the victim, to obtain
tax returns filed using the victim’s SSN. The pilot was expanded in October 2012 to
eight additional States5 and became permanent on March 29, 2013 as a nationwide
program. In April 2013, the IRS announced that this partnership was expanded to



2 TIGTA, Ref. No. 2012-40-050, Most Taxpayers Whose Identities Have Been Stolen to Commit Refund
Fraud Do Not Receive Quality Customer Service (May 2012); TIGTA, Ref. No. 2012-42-080, There Are
Billions of Dollars in Undetected Tax Refund Fraud Resulting From Identity Theft (July 2012); TIGTA, Ref.
No. 2013-40-062, The Taxpayer Protection Program Improves Identity Theft Detection; However, Case
Processing Controls Need to Be Improved (June 2013).
3
  This program reviews tax returns that are proactively identified by the IRS as potential identity theft and
stops fraudulent refunds before they are issued.
4
  IRS Press Release, IR-2013-33 (March 26, 2013), available at http://www.irs.gov/uac/Newsroom/IRS-
Releases-the-Dirty-Dozen-Tax-Scams-for-2013.
5
  Alabama, California, Georgia, New Jersey, New York, Oklahoma, Pennsylvania, and Texas.
                                                     2
include all 50 states, the District of Columbia, Guam, the Northern Marianas Islands,
Puerto Rico, and the U.S. Virgin Islands. As of May 30, 2013, the IRS has processed
2,731 waivers from 244 different law enforcement agencies.

Detection and Prevention of Identity Theft

       As of June 30, 2013, the IRS reports that during the 2013 Filing Season it
stopped the issuance of $4.2 billion in potentially fraudulent tax refunds associated with
almost 860,000 tax returns classified as involving identity theft. While the amount of
fraudulent tax refunds the IRS detects and prevents is substantial, it does not know how
many identity thieves are filing fictitious tax returns and how much revenue is being lost
due to the issuance of fraudulent tax refunds.

          Although the IRS identified significantly more identity theft incidents in 2013, this
is still a growing problem area for the IRS. In July 2013, TIGTA issued a draft report
showing that the impact of identity theft on tax administration continues to be
significantly greater than the amount the IRS detects and prevents.6 Using the
characteristics of tax returns that the IRS confirmed as involving identity theft and
income and withholding information the IRS received in 2012 and early 2013, we
analyzed Tax Year (TY) 2011 tax returns processed during the 2012 Filing Season and
identified approximately 1.1 million undetected tax returns where the primary Taxpayer
Identification Number on the tax return was an SSN. These tax returns have potentially
fraudulent tax refunds totaling approximately $3.6 billion, a decrease of $1.6 billion
compared to the $5.2 billion we reported for Tax Year 2010.7 Although these tax returns
met the characteristics of IRS confirmed identity theft cases involving the use of an
SSN, some potentially fraudulent tax returns we identified could also be the result of
non-reporting of income and withholding by the employer or an individual using his or
her own SSN to file a fraudulent tax return.

        In addition, we expanded our TY 2011 analysis to include tax returns where the
primary Taxpayer Identification Number on the tax return is an Individual Taxpayer
Identification Number (ITIN). We identified more than 141,000 TY 2011 tax returns filed
with an ITIN that have the same characteristics as IRS confirmed identity theft tax
returns. Potentially fraudulent tax refunds issued for these undetected tax returns
totaled approximately $385 million, which is in addition to the approximately $3.6 billion
referred to earlier. Although these tax returns met the characteristics of IRS confirmed


6
  TIGTA, Audit No. 201240044, Detection Has Improved; However, Identity Theft Continues to Result in
Billions of Dollars in Potentially Fraudulent Tax Refunds, report planned for September 2013.
7
  TIGTA, Ref. No. 2012-42-080, There Are Billions of Dollars in Undetected Tax Refund Fraud Resulting
From Identity Theft (July 2012).
                                                  3
identity theft cases involving the use of an ITIN, some of the potentially fraudulent tax
returns we identified could also be the result of misreporting of income and withholding
by the employer or an individual obtaining an ITIN for the sole purpose of using the ITIN
to file a fraudulent tax return.

         In total, the IRS could issue potentially fraudulent refunds of approximately
$4 billion annually as a result of identity theft tax refund fraud. A common characteristic
of tax returns filed by identity thieves is the reporting of false income and withholding to
generate a fraudulent tax refund. Without the falsely reported income, many of the
deductions and/or credits used to inflate the fraudulent tax refund could not be claimed
on the tax return. Another aspect to this problem is that many individuals who are
victims of identity theft may be unaware that their identity has been stolen and used to
file fraudulent tax returns. These individuals are typically those who are not required to
file a tax return. It is not until the IRS receives income and withholding information later
in the year that the IRS may determine the tax return was false and possibly the result
of identity theft. If the taxpayer is required to file a tax return, often the IRS discovers
the identity theft when two or more tax returns are filed under the same name and SSN.

        When the identity thief files the fraudulent tax return before the legitimate
taxpayer, the IRS does not yet know whether the victim’s identity will be used more than
once. Instances of duplicate tax returns cause the greatest burden to the legitimate
taxpayer. Once the legitimate taxpayer files his or her tax return, this tax return is
identified as being a duplicate tax return and the refund is held until the IRS can confirm
the taxpayer’s identity. For TY 2011, we identified more than 174,000 SSNs that were
used multiple times, i.e., one or more potentially fraudulent tax returns were associated
with the multiple use of an SSN.8 We estimate that more than $183 million in potentially
fraudulent tax refunds were paid to identity thieves who filed tax returns before the
legitimate taxpayers filed theirs.9 This is in addition to the $4 billion noted previously,
which was related to taxpayers who do not appear to have a filing requirement.

         Although the IRS is continuing to work towards finding ways to determine which
tax returns are legitimate, it could do more to prevent identity thieves from electronically
filing (e-filing) fraudulent tax returns by strengthening controls. The majority
(93 percent) of the undetected tax returns TIGTA identified were e-filed. Before a tax
return can be submitted electronically, the taxpayer must verify his or her identity with



8
  This estimate includes only those tax returns filed on tax accounts that contain an Identity Theft Indicator
added on or before December 31, 2011. Identity theft indicator codes were developed to centrally track
identity theft incidents and are input to the affected taxpayer's account.
9
  This estimate is based only on the duplicate use of the primary SSN.
                                                      4
either the prior year’s tax return Self-Select Personal Identification Number or Adjusted
Gross Income. However, we determined that this control can be circumvented.

       For the 2013 Filing Season, the IRS has required the taxpayer to provide
additional personally identifiable information. Nonetheless, it remains a challenge to
authenticate taxpayers who call or write to the IRS to request help with their tax
account. The IRS has not adopted industry practices of shared secrets, such as
security challenge questions, to authenticate taxpayers (e.g., mother’s maiden name or
name of first pet).

       Access to third-party income and withholding information at the time tax returns
are processed is the single most important tool the IRS could use to detect and prevent
tax fraud-related identity theft resulting from the reporting of false income and
withholding. Having third-party reporting information at the time tax returns are
processed would enable the IRS to identify the income as false and prevent the
issuance of a fraudulent tax refund. However, most of this information is not available
until well after taxpayers begin filing their returns.

       Another important tool that could immediately help the IRS prevent tax
fraud-related identity theft is the National Directory of New Hires.10 However, legislation
would be needed to expand the IRS’s authority to access the National Directory of New
Hires wage information for use in identifying tax fraud. Currently, the IRS’s use of this
information is limited by law to just those tax returns that include a claim for the Earned
Income Tax Credit. The IRS included a legislative proposal for expanded access to this
information in its annual budget submissions for Fiscal Years (FY) 2010 through 2013
and has once again included this proposal in its FY 2014 budget submission.

       Identifying potential identity theft tax fraud is the first step. Verifying whether the
returns are fraudulent will require additional resources. Using IRS estimates, it would
cost approximately $22 million to screen and verify all of the over 1.2 million tax returns
that we identified as not having third-party information on income and withholding.
However, the IRS can maximize the use of its limited resources by reviewing tax returns
with the highest risk for refund fraud.

       Without the necessary resources, it is unlikely that the IRS will be able to work
the entire inventory of potentially fraudulent tax returns it identifies. The IRS selects
only those tax returns for which it can verify the identity of the taxpayer and/or the


10
  A Department of Health & Human Services national database of wage and employment information
submitted by Federal agencies and State workforce agencies.
                                                5
income based on available resources. If the IRS does not have the resources to work
the remainder of the potentially fraudulent tax returns it identifies, the refunds will be
issued. The net cost of not providing the necessary resources is substantial, given that
the potential revenue loss to the Federal Government of these tax fraud-related identity
theft cases is billions of dollars annually.

       As we reported in July 2008, July 2012, and again in our current Draft Report, the
IRS is not in compliance with direct-deposit regulations that require tax refunds to be
deposited into an account only in the name of the individual listed on the tax return.11
Direct deposit, which now includes debit cards, provides the ability to receive fraudulent
tax refunds quickly, without the difficulty of having to negotiate a tax refund paper check.
The majority of the TY 2011 tax returns we identified with indicators of identity theft (84
percent) involved the use of direct deposit to obtain tax refunds totaling approximately
$3.5 billion. There are indications that abusive practices are still ongoing. For example,
one bank account received 446 direct deposits totaling over $591,000.

       To improve the IRS’s conformance with direct-deposit regulations and to help
minimize fraud, TIGTA recommended that the IRS limit the number of tax refunds being
sent to the same direct-deposit account. Limiting the number of tax refunds that can be
deposited into the same account can minimize losses associated with fraud. While
such a limit does not ensure that all direct deposits are for the legitimate taxpayer, it
does have the potential to limit the extent of fraud. As of June 2013, the IRS is still
considering this recommendation, but the IRS did develop new filters for the 2013 Filing
Season designed to identify and stop tax returns with similar direct deposit
characteristics. As of May 30, 2013, the IRS indicated it had identified 154,302 tax
returns from these filters and prevented approximately $470 million tax refunds from
being issued.

       We also recommended, and the IRS agreed, that it should coordinate with
responsible Federal agencies and banking institutions to develop a process to ensure
that tax refunds issued via direct deposit, either to a bank account or to a debit card
account, are made only to an account in the taxpayer’s name. In January 2013, the IRS
implemented a pilot program with the Department of the Treasury Fiscal Service12
designed to allow financial institutions to reject direct deposit tax refunds based on
mismatches between the account name and the name on the tax return. Once the
refund is identified by the institution, it is sent back to the Fiscal Service to be routed



11
   TIGTA, Ref. No. 2008-40-182, Processes Are Not Sufficient to Minimize Fraud and Ensure the
Accuracy of Tax Refund Direct Deposits (Sept. 2008).
12
   Formerly, the Department of the Treasury Financial Management Service.
                                                  6
back to the IRS. As of June 29, 2013, there have been 18,247 refunds returned from
financial institutions totaling more than $60 million. This is a promising first step in
recovering fraudulent tax refunds issued via direct deposit.

        In addition, the IRS continues to expand its efforts to identify fraudulent tax
returns and prevent the payment of tax refunds by processing all individual tax returns
through identity theft screening filters. These filters look for known characteristics of
identity theft cases to detect fraudulent tax returns before they are processed and
before any tax refunds are issued. In Processing Year 2012, there were 11 filters that
identified approximately 325,000 tax returns and prevented approximately $2.2 billion in
fraudulent refunds from being issued. In Processing Year 2013, the number of filters
increased to more than 80, which has enhanced the IRS’s ability to identify identity theft
tax refund fraud. As of May 30, 2013, the IRS identified 151,010 tax returns and
prevented approximately $840 million in fraudulent tax refunds from being issued. This
represents a 90 percent increase over the number that the IRS identified for the same
period in Processing Year 2012.

       One of these filters uses benefit and withholding information from the Social
Security Administration (SSA), which TIGTA had previously recommended. Beginning
in Processing Year 2012, this information was used to verify that Social Security
benefits and related withholding reported on tax returns matched the information
reported by the SSA. Overall, this will help the IRS identify tax returns with false
reporting of Social Security benefits and withholding in an attempt to obtain fraudulent
refunds. As of May 30, 2013, the IRS indicated that it had identified 36,523 tax returns
and prevented approximately $184 million in tax refunds from being issued based on
the 2013 Filing Season Social Security filters.

        Tax returns detected by the various expanded filters are held during processing
until the IRS can verify the taxpayers’ identity. IRS employees attempt to contact these
individuals and request information to verify that the individual filing the tax return is the
legitimate taxpayer. If the IRS cannot confirm the filer’s identity, it suspends processing
of the tax return to prevent the issuance of a fraudulent tax refund.

       In January 2012, the IRS created the Identity Theft Clearinghouse within Criminal
Investigation. The Clearinghouse was created to accept tax fraud-related identity theft
leads from the IRS’s Criminal Investigation field offices. The Clearinghouse performs
research, develops each lead for the field offices, and provides support for ongoing
criminal investigations involving identity theft. As of May 31, 2013, the Clearinghouse
had received more than 3,400 identity theft leads that have resulted in the development
of 478 investigations.

                                              7
       Finally, the IRS has significantly expanded the number of tax accounts that it
locks by placing an identity theft indicator on the individuals’ tax account.13 Between
January 2011 and May 2013, the IRS has locked approximately 10 million taxpayer
accounts, which will assist the IRS in preventing future identity theft fraudulent tax
refunds from being issued. Electronically filed tax returns using the SSN of a locked
account will be rejected (the IRS will not accept the tax return for processing). Paper
tax returns will be processed; however, the tax returns will not post to the taxpayer’s
account due to the account lock, and a refund will not be issued. As of May 31, 2013,
the IRS had rejected 152,301 e-filed tax returns during the 2013 Filing Season.
Additionally, the IRS has stopped 169,642 paper filed tax returns and prevented the
issuance of approximately $5.6 million in fraudulent tax refunds since the inception of
the lock.14

IRS Assistance to Victims of Identity Theft

       In May 2012, we reported that the IRS is not effectively providing assistance to
taxpayers who report that they have been victims of identity theft, resulting in increased
burden for those victims.15 Moreover, identity theft cases can take more than one year
to resolve, and communication between the IRS and victims is limited and confusing.
Victims are also asked multiple times to substantiate their identities. Furthermore,
during the 2012 Filing Season, identity theft tax returns were not prioritized during the
standard tax return filing process.

        We are currently finishing our audit work on a follow-up review assessing IRS
assistance to victims of identity theft and plan to issue a report in October 2013.16 In
this review, we selected a statistically valid sample of 100 identity theft cases closed
between the period August 1, 2011 through July 31, 2012, and are reviewing the cases
to determine whether the cases were timely and accurately resolved. Although the IRS
was able to determine the rightful owner of the Social Security Number, cases continue
to face delays, with some cases having significant inactivity in case processing. In
addition, we are finding that tax accounts were not always correctly resolved before the




13
   When an account is locked, tax refunds are held.
14
   The IRS locked the majority of the 10 million accounts in December 2012; therefore, the increased
benefit of refunds prevented should be realized during Processing Year 2013.
15
   TIGTA, Ref. No. 2012-40-050, Most Taxpayers Whose Identities Have Been Stolen to Commit Refund
Fraud Do Not Receive Quality Customer Service (May 2012).
16
   TIGTA, Audit No. 201240041, Effectiveness of Assistance Provided to Victims of Identity Theft (Follow-
Up), report planned for October 2013.
                                                    8
cases were closed. The incorrect resolutions resulted in delays in issuing refunds to
taxpayers and in some cases resulted in the IRS issuing an incorrect refund.

        In discussions with the IRS regarding our review of the 100 cases, management
indicated that they have implemented a number of actions for the 2013 Filing Season
which will further improve the processing of identity theft cases. For example, they
implemented a process to expedite the processing of tax returns with an attached
Identity Theft Affidavit. Paper filed tax returns with an attached Identity Theft Affidavit or
police report are being marked with a special processing code and expedited directly to
the IRS’s Accounts Management function for case processing. The IRS indicated that
the direct routing of these tax returns will shorten case processing by one to two
months. We plan to review this new process in our next audit of identity theft.

        Some corrective actions planned by the IRS in response to our May 2012 report
were not scheduled to be completed until September 2013 or were not fully
implemented, so they were not included in our review. We will evaluate the
effectiveness of these corrective actions and any new processes in our next follow-up
audit.

       Despite these corrective actions, the IRS will continue to face significant
challenges in assisting victims of tax fraud-related identity theft. In our FY 2012 report,
we reported on several of these challenges.

        Resources were not sufficient to work identity theft cases dealing with refund
fraud. IRS employees who worked the majority of identity theft cases were telephone
assistors who also respond to taxpayers’ calls to the IRS’s toll-free telephone lines. In
addition, telephone assistors are not examiners and are not trained to conduct
examinations. We recommended that the IRS provide additional training for assistors,
to include training on the importance of documenting case actions and histories. We
are currently evaluating the actions the IRS has taken on training for assistors.17

        The management information system that telephone assistors use to control and
work cases can add to the taxpayer’s burden. For instance, the IRS may open multiple
cases for the same victim, and multiple assistors may work that same victim’s identity
theft issue. In our May 2012 audit, we found that victims were frustrated when they
were asked numerous times to prove their identities.




17
  TIGTA, Audit No. 201240041, Effectiveness of Assistance Provided to Victims of Identity Theft (Follow-
Up), report planned for October 2013.
                                                   9
       The IRS sends the victims duplicate letters at different times, wasting agency
resources and possibly confusing the victims. For example, the IRS sent taxpayers two
different letters several weeks apart advising that the taxpayer’s identity theft case has
been resolved. Neither letter advised when the taxpayer should expect to receive his or
her tax refund.

      In addition, identity theft case histories were so limited that it was difficult to
determine what action had been taken on a case. During our 2012 audit, we could not
determine if some cases had been resolved or why those cases were still open. In most
cases, the auditors had to reconstruct the cases to determine if all actions had been
appropriately taken to resolve them.

       Taxpayers could also be further burdened if the address on the tax return filed by
the identity thief is false. If the identity thief has changed the address on the tax return,
the IRS does not know that the address change is inappropriate and will update its
account record for the legitimate taxpayer. The IRS does not notify the taxpayer that his
or her account has been changed with the new address.

       In such cases, while the IRS is in the process of resolving an identity theft case,
the identity thief’s address becomes the address on the taxpayer’s record. Any IRS
correspondence or notices unrelated to the identity theft case will be sent to the most
recent address on record. As a result, the legitimate taxpayer (the identity theft victim)
may be unaware that the IRS is trying to contact him or her.

        This situation can also create disclosure issues. For example, if the legitimate
taxpayer’s prior-year tax return has been selected for an examination, the examination
notice will be sent to the address of record – the address the identity thief used on the
fraudulent tax return. The identity theft victim is then at risk that his or her personal and
tax information will be disclosed to an unauthorized third party (whoever resides at that
address). In response to our May 2012 report, the IRS stated that in January 2012 it
expanded its identity theft indicator codes that annotate the taxpayer’s account when
there is a claim of identity theft and will explore leveraging these new indicators to
suspend certain correspondence. The IRS’s corrective actions are not expected to be
fully implemented until September 2013. We plan to evaluate whether the IRS is
effectively implementing these corrective actions in a future follow-up audit.

       The IRS took steps in FY 2012 to improve assistance for taxpayers who learn
that another taxpayer has filed a tax return using his or her identity. For example, the
IRS reorganized to establish an Identity Theft Program Specialized Group within each
of the business units and/or functions where employees are assigned to work the

                                             10
identity theft portion of the case. It has also revised processes to shorten the time it
takes the IRS to work identity theft cases and has refined codes to better detect and
track identity theft workloads.

        To further assist victims in the filing of their tax returns, the IRS began issuing
Identity Protection Personal Identification Numbers (IP PIN) in Fiscal Year 2011 to these
individuals. The IP PIN will indicate that the taxpayer has previously provided the IRS
with information that validates his or her identity and that the IRS is satisfied that the
taxpayer is the valid holder of the SSN. Tax returns that are filed on accounts with an
IP PIN that has been correctly entered at the time of filing will be processed as the valid
tax return using standard processing procedures, including issuing any refunds, if
applicable. A new IP PIN will be issued each year before the start of the new filing
season, for as long as the taxpayer remains at risk of identity theft. For the 2012 Filing
Season, the IRS sent 252,000 individuals an IP PIN. For the 2013 Filing Season, the
IRS reports that it issued 759,000 IP PINs.

        Finally, in January 2012, the IRS established a Taxpayer Protection Program to
manage work arising from the identity theft indicators and filters used to detect tax
returns affected by identity theft – both to stop the identity thief’s tax return from being
processed and to ensure that the legitimate taxpayer’s tax return is processed.
However, during the 2012 Filing Season, taxpayers found it difficult to reach employees
in this Program. The Program received approximately 200,000 calls during FY 2012,
but was only able to answer about 73,000. The average wait time for taxpayers was 33
minutes. For the 2013 Filing Season, the IRS increased the number of employees
answering this Program’s telephone line from 10 to more than 200 employees.

        In June 2013, we issued a report on our audit of the Taxpayer Protection
Program, which evaluated whether the Program helps the IRS to effectively assist
taxpayers and resolve identity theft cases. We found that the Program has improved
identity theft detection. For example, the Program identified 324,670 tax returns in CY
2012 that involved identity theft and prevented the issuance of fraudulent refunds
totaling $2.2 billion. These tax returns were identified before processing was completed
to protect tax refunds from being issued. However, controls over identity theft tax
returns worked in the Program need to be strengthened. We found that required
identity theft indicators were not always input on taxpayer accounts. When these
indicators are not input, there is the risk that the IRS will issue a fraudulent refund to an
identity thief and the taxpayer continues to be at risk of an identify thief filing a
fraudulent tax return using his or her identity.




                                             11
       In addition, we found that cases were not being clearly documented or closed
accurately. For example, for the 12 cases we judgmentally selected and reviewed, we
were not able to determine from the case notes whether the IRS took the appropriate
actions when working the case.18 We also determined that timeliness measures to track
the time frame to resolve identity theft cases have not been established. Finally, we
found that the IRS could not provide support confirming that employees working the
cases received the required identity theft training to perform their assigned duties. The
IRS agreed with all of our recommendations and plans to take actions to address our
concerns.

Criminal Investigations of Identity Theft

       Not only does identity theft have a negative impact on the economy, but the
damage it causes to its victims can be personally, professionally, and financially
devastating. When individuals steal identities and file fraudulent tax returns to obtain
fraudulent refunds before the legitimate taxpayers file, the crime is simple tax fraud,
which falls within the programmatic responsibility of IRS Criminal Investigation. TIGTA’s
Office of Investigations focuses its limited resources on investigating identity theft that
has any type of IRS employee involvement, the misuse of client information by tax
preparers, or the impersonation of the IRS through phishing schemes19 and other
means. Where there is overlapping jurisdiction, TIGTA and IRS-Criminal Investigation
will work together to bring identity thieves to justice.

        IRS employees are entrusted with the sensitive personal and financial
information of taxpayers. Using this information to perpetrate a criminal scheme for
personal gain negatively impacts our Nation’s voluntary tax system and generates
widespread distrust of the IRS. TIGTA aggressively investigates IRS employees
involved in identity theft crimes. When the Office of Investigations completes an identity
theft investigation, it is referred to the Department of Justice for prosecution.

      For example, a former IRS employee was arrested after being charged by a
Federal grand jury on June 26, 2012, for aggravated identity theft, mail fraud,
unauthorized inspection of tax returns and return information, and unauthorized



18
   There were 309,836 cases in the population that we selected the judgmental sample from. We
selected a judgmental sample to determine if there were indications of problems and we did not plan to
project the error rate to the population.
19
   Phishing is an attempt by an individual or group to solicit personal and financial information from
unsuspecting users in an electronic communication by masquerading as trustworthy entities such as
government agencies, popular social web sites, auction sites, online payment processors, or information
technology administrators.
                                                   12
disclosure of tax returns and return information. She subsequently pled guilty to those
charges on August 14, 2012, and was sentenced on March 28, 2013, to 28 months of
imprisonment with three years of supervised release.20

        TIGTA also investigated a tax preparer who stole the personal identifiers of
several individuals and unlawfully disclosed the information to others to fraudulently
obtain tax refunds. According to the indictment, the subject of the investigation worked
as a tax preparer from January 2002 to June 2008. In 2010, he used the personal
identifiers of other individuals to file false income tax returns and obtain refunds from the
IRS. The preparer obtained most of the personal identifiers in the course of his prior
employment as a tax preparer and from other employment positions he held. He
disclosed this information to co-conspirators so they could also file false income tax
returns and obtain refunds from the IRS. The subject and his co-conspirators ultimately
defrauded or attempted to defraud the IRS out of at least $560,000 in tax refunds.21
The subject was sentenced to 15 years in prison and ordered to pay restitution in the
amount of $515,257.75.22

        Identity thieves may also commit identity theft by impersonating IRS employees
or misusing the IRS seal to induce unsuspecting taxpayers to disclose their personal
identifiers and financial information. One such criminal posed as an IRS “Audit Group
Representative” and, according to the indictment, sent letters to various employers
demanding that they send him the names, contact information, dates of birth, and SSNs
of their employees. He then prepared and filed false Federal tax returns with the IRS in
the names of various such employees without their knowledge or consent. The tax
returns contained W-2 information, such as income and withholding, that was falsely
and fraudulently inflated. The subject of the investigation used the refunds to purchase
personal items. The subject pled guilty to false impersonation of an officer and
employee of the United States; identity theft; subscribing to false and fraudulent U.S.
individual income tax returns; and false, fictitious, or fraudulent claims. He was
sentenced to 41 months of imprisonment and three years of supervised release. He
was also ordered to pay $8,716 in restitution.23

      Finally, TIGTA investigated a phishing scheme in which several individuals were
deceived into divulging their personal identifiers and banking information to identity



20
    E.D. Pa. Arrest Warrant executed July 5, 2012; E.D. Pa. Crim. Indict. filed June 26, 2012; E.D. Pa.
Crim. Docket dated Jan. 22, 2013.
21
    S.D. Cal. Superseding Indict. filed June 19, 2012.
22
    S.D. Cal. Judgment dated May 30, 2013.
23
    S.D.N.Y. Crim. Indict. filed Jan. 25, 2012; S.D.N.Y. Minute Entry filed July 11, 2012; S.D.N.Y. Judgment
filed March 25, 2013.
                                                    13
thieves who then defrauded them of over $1 million. The subject and his
co-conspirators operated a scheme to defraud numerous individuals through Internet
solicitations, stealing more than $1 million and the identities of those individuals. The
subject of the investigation was sentenced to a total of 30 months of imprisonment and
five years of supervised release for Aggravated Identity Theft and Conspiracy to
Commit Wire Fraud. He was also ordered to pay $1,741,822 restitution to his victims.24

        While phishing schemes may vary in their technical complexity, many share a
common trait: They involve computers located outside the United States. Despite the
significant investigative challenge this poses, TIGTA has been successful in working
with law enforcement personnel in foreign countries to identify the perpetrators and
obtain prosecutions.

       TIGTA’s Office of Investigations investigated an individual who, along with his
co-conspirators, engaged in a fraud scheme that specifically targeted senior citizens.
As part of the scheme, a co-conspirator would send e-mails to victims representing that
he was an attorney or foreign government official who was responsible for distributing
an inheritance. The e-mails sent to the unsuspecting victims falsely informed them that
they owed additional taxes to the IRS, or had inherited millions of dollars but needed to
pay processing fees to release the funds. When the victims responded to the e-mails,
the subject of the investigation, or one of his co-conspirators, contacted them by
telephone and e-mail pretending to be someone who could assist them in obtaining the
promised inheritance. The victims were led to believe that these contacts were from
legitimate business people, and were deceived into paying fees in advance of receiving
the inheritance. However, the funds were never used to pay any fees, nor were any
inheritance payments made to the victims. The subject of this investigation pled guilty
to an indictment charging him with 15 counts of wire fraud and is awaiting sentencing.25

        In addition to these TIGTA investigations, in February 2013, the IRS announced
the results of a nationwide effort with the Department of Justice and local U.S. Attorneys
offices targeting identity theft suspects in 32 States and Puerto Rico, which involved 215
cities and surrounding areas. This joint effort involved 734 enforcement actions related
to identity theft and refund fraud, including indictments, informations, complaints, and
arrests.



24
   E.D.N.Y. Response to Defendant’s Sentencing Letter filed Dec. 19, 2011; E.D.N.Y. Judgment filed Aug.
9, 2012.
25
   C.D. Cal. Opposition to Defendant’s Ex Parte Application to Continuance of Trial Date filed June 6,
2012; C.D. Cal. Indict. filed Oct. 21, 2009; C.D. Cal. Crim. Complaint filed Aug. 3, 2009; C.D. Cal. Crim.
Minutes Change of Plea filed July 31, 2012.
                                                   14
        In conclusion, the IRS has undertaken important steps and initiatives to prevent
the occurrence of identity theft and associated tax fraud. It has made some progress in
addressing the rapidly growing challenge of identity theft. Nevertheless, we at TIGTA
remain concerned about the ever-increasing growth of identity theft and its impact on
victims of identity theft and on the Nation’s system of tax administration. Because of the
importance of this issue, we plan to provide continuing audit coverage of the IRS’s
efforts to prevent tax fraud-related identity theft and to provide assistance to those
taxpayers who have been victimized. In addition, we will continue to conduct vigorous
criminal investigations of identity theft violations involving IRS employees, tax return
preparers, and individuals impersonating the IRS.

       Chairman Mica, Ranking Member Connolly, and Members of the Subcommittee,
thank you for the opportunity to update you on our work on this critical tax administration
issue and to share my views.




                                            15
                          Michael E. McKenney
                          Acting Deputy Inspector General for Audit
                          Treasury Inspector General for Tax
                          Administration

                          Mike McKenney serves as the Acting Deputy Inspector
                          General for Audit for the Treasury Inspector General for Tax
                          Administration (TIGTA). He leads a nationwide audit function
                          consisting of 260 staff members who strive to promote the
                          economy, efficiency, and effectiveness of tax administration.

The Audit program’s reports and recommendations to the Internal Revenue Service
(IRS) have focused on improving tax administration and addressing the IRS’
management challenges in the areas of data and employee security, computer
modernization, tax law compliance and complexity, human capital, and improper and
erroneous payments.

Prior to this, Mike served as the Assistant Inspector General for Audit (Returns
Processing and Account Services) for TIGTA, where he was responsible for providing
audit oversight of IRS operations related to the preparation and processing of tax
returns and the issuing of refunds to taxpayers. This includes customer service
activities, outreach efforts, tax law implementation, taxpayer assistance, accounts
management, notices, submission processing, and upfront compliance such as the
Frivolous Returns Program and the Questionable Refund Program.

Mike served in various managerial positions with TIGTA, covering a broad range of IRS
areas including the IRS Oversight Board, Agency-Wide Shared Services, Chief Human
Capital Office, Office of Appeals, Taxpayer Advocate Service, Office of Research and
Analysis, and the Office of Professional Responsibility. Mike also opened and managed
TIGTA’s Denver field office for the Office of Audit. He began his Federal auditing career
in 1992 with the IRS Inspection Service in Los Angeles. Mike graduated from California
State University, Fullerton with a B.A. in Business (Accounting).




                                           16
